      Department of Homeland Security




            Obligation of American Recovery and
             Reinvestment Act Funds by the U.S.
              Customs and Border Protection for
                      Land Ports of Entry




             American Recovery and Reinvestment Act of 2009




OIG-12-72                                                     April 2012
 

                                                              Office of Inspector General

                                                              u.s. Department of Homeland Security
                                                              Washington, DC 20528




                                                              Homeland


                                                              Security


                                         APR 06 2012
                                          Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audits, inspections, and
special reports prepared as part of our oversight responsibilities for programs, grants, and
projects administered by the Department under the American Recovery and Reinvestment
Act of 2009 (Recovery Act).

This report presents information on Recovery Act funds obligated by U.S. Customs and
Border Protection to administer and monitor land ports of entry and on the overall status
of project funds. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

We express our appreciation to all of those who contributed to the preparation of this
report.


                                  Anne L. Richards
                                  Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2
 


Results of Review ............................................................................................................... 4



     Obligations for Project Administration, Monitoring, and Information Technology .....4
 


     Program Monitoring.......................................................................................................4
 


     Status of Projects and Funds ..........................................................................................5
 


Appendices
     Appendix A: Purpose, Scope, and Methodology.........................................................7
 

     Appendix B: Management Comments to the Draft Report .........................................9
 

     Appendix C: Projects, Funds Obligated, and Forecasted Completion Dates, as of 

                 October 4, 2011....................................................................................11
 

     Appendix D: Major Contributors to this Report ........................................................12
 

     Appendix E: Report Distribution ..............................................................................13
 


Abbreviations
     CBP                   U.S. Customs and Border Protection
 

     DHS                   Department of Homeland Security
 

     GSA                   General Services Administration
 

     OIG                   Office of Inspector General
 

     PMRS                  Program Management and Reporting System
 

     USACE                 U.S. Army Corps of Engineers
 

OIG


Department of Homeland Security
Office of Inspector General

Executive Summary
                  The American Recovery and Reinvestment Act of 2009, as
                  amended, included $420 million for management and construction
                  of Customs and Border Protection (CBP)-owned land ports of
                  entry. In a prior audit, we looked at the use of funds for
                  construction of the ports. Our objectives in this review were to (1)
                  determine whether funds obligated for project administration and
                  monitoring were for purposes authorized by the American
                  Recovery and Reinvestment Act of 2009; (2) determine whether
                  CBP, the General Services Administration, and the U.S. Army
                  Corps of Engineers established adequate oversight and monitoring
                  processes and procedures over the construction and alteration
                  projects; and (3) identify the status of the obligations and projects
                  as of October 4, 2011.

                  This review focused on $71.6 million that CBP obligated for
                  internal project management and support, information technology,
                  and assistance from the General Services Administration and
                  U.S. Army Corps of Engineers.

                  We determined that funds obligated by CBP for project
                  administration and monitoring and for information technology
                  were for purposes authorized by the American Recovery and
                  Reinvestment Act of 2009. Also, we concluded that CBP, the
                  General Services Administration, and the U.S. Army Corps of
                  Engineers established adequate oversight and monitoring processes
                  and procedures over the construction and alteration projects. As of
                  October 4, 2011, CBP reported obligations of $375,453,047, and
                  an unobligated balance of its American Recovery and Reinvestment
                  Act of 2009 appropriation of $44,546,953. CBP indicated that it
                  would return $35,881,420 of unobligated funds to the U.S.
                  Treasury, and that it would retain $8,665,533 for reconstruction
                  projects if needed. This report does not present any
                  recommendations.




             Obligation of American Recovery and Reinvestment Act Funds by the
                U.S. Customs and Border Protection for Land Ports of Entry 


                                          Page 1 

Background
                  A land port of entry (port) is a facility that provides controlled
                  entry to and exit from the United States for people and materials.
                  It consists of land, buildings, roadways, and parking lots.
                  Currently, there are 167 ports: 122 on the northern U.S.-Canadian
                  border and 45 on the southern U.S.-Mexican border. CBP owns 41
                  of these ports: 37 on the northern border and 4 on the southern
                  border.

                  The American Recovery and Reinvestment Act of 2009 (Recovery
                  Act), as amended, was enacted on February 17, 2009. The
                  Recovery Act appropriated $420 million “solely for planning,
                  management, design, alteration, and construction of [CBP] owned
                  land border ports of entry.” Among the Recovery Act’s stated
                  purposes are the creation and preservation of jobs, promotion of
                  economic recovery, and investment in infrastructure. Regarding
                  infrastructure development, the Recovery Act required federal
                  agencies to give preference to activities that “can be started and
                  completed expeditiously, including a goal of using at least 50
                  percent of the funds for activities that can be initiated not later than
                  120 days after the date of the enactment of this Act.”

                  The Recovery Act also required that CBP obligate the funds by
                  September 30, 2010, and that the Secretary of the Department of
                  Homeland Security (DHS) submit to the Committees on
                  Appropriations for the Senate and House of Representatives a plan
                  for the expenditure of the funds. Guidance from the Office of
                  Management and Budget (M-09-15, Updated Implementing
                  Guidance for the American Recovery and Reinvestment Act of 2009)
                  required the submission of final program-specific Recovery Act
                  plans by May 15, 2009.

                  In its May 15, 2009, program-specific spending plan, CBP said
                  that it would use $374 million to construct new facilities at 23
                  existing CBP-owned ports and $25 million to repair and alter a
                  minimum of 10 additional ports. The plan also included
                  $21 million for a Program Management and Reporting System
                  (PMRS) to aid in managing the construction projects. On April 12,
                  2010, CBP submitted a revised plan that estimated about $389
                  million for design, construction, contingency, program support,
                  and project build-out for 33 new ports. Funding for the 10
                  additional construction projects became available when CBP
                  learned that the costs of the initial 23 port projects were lower than


             Obligation of American Recovery and Reinvestment Act Funds by the
                U.S. Customs and Border Protection for Land Ports of Entry

                                          Page 2
     estimated. The revised plan also included funds for the PMRS and
     for repairs and alterations.

     This review primarily focused on the approximately $71.6 million
     that CBP obligated for administering and monitoring project
     construction and for information technology. Funds obligated for
     construction of the ports were not reviewed because the
     construction program was covered in our August 26, 2011, audit of
     CBP’s use of funds for construction of ports.

     On October 22, 2009, the Office of Inspector General (OIG) issued
     Review of the U.S. Customs and Border Protection Expenditure
     Plans for the American Recovery and Reinvestment Act of 2009
     (OIG 10-05). The purpose of that review was to determine
     whether CBP developed practical and comprehensive plans related
     to the construction of CBP-owned ports. The report concluded that
     CBP generally developed practical, thorough, and comprehensive
     expenditure plans for these activities.

     On August 26, 2011, OIG issued a report on the Use of American
     Recovery and Reinvestment Act Funds by U.S. Customs and
     Border Protection for Construction of Land Ports of Entry (OIG
     11-97). That report focused on CBP’s use of funds and approach
     to altering and constructing ports on the northern border. The
     report concluded that CBP generally developed reasonable plans
     for spending Recovery Act funds under the constraints of the
     Recovery Act. The plans provided for completing actions
     necessary to meet the environmental, historic, and cultural
     preservation requirements; acquiring land; designing projects;
     obligating internal funds and awarding contracts; and building at
     multiple locations throughout the United States. The report also
     said that features in standard port designs contributed to CBP
     building ports that are larger than necessary to meet operational
     requirements, that CBP did not fully support the basis for its
     decision regarding the port size required at different locations, and
     that CBP is building three new ports and repairing one port at
     locations that its field offices recommended be closed.




Obligation of American Recovery and Reinvestment Act Funds by the
   U.S. Customs and Border Protection for Land Ports of Entry 


                             Page 3 

Results of Review
     The funds that CBP obligated for project administration and monitoring and for
     information technology were for purposes authorized by the Recovery Act. Also,
     CBP, the General Services Administration (GSA), and the U.S. Army Corps of
     Engineers (USACE) established adequate oversight and monitoring processes and
     procedures for the construction and alteration projects. As of October 4, 2011,
     CBP reported obligations of $375,453,047 and an unobligated balance of its
     Recovery Act appropriation of $44,546,953 (see appendix C).

     Obligations for Project Administration, Monitoring, and
     Information Technology
            Obligations for project administration and monitoring included funds set
            aside for CBP internal management and contracts that CBP awarded for
            project management support and information technology systems and
            equipment. Based on our review of supporting information, we concluded
            that the obligations were for the Port Modernization Program and
            obligated for authorized purposes, as summarized in table 1:

             Table 1. Obligations for Administration, Monitoring, and
                      Information Technology, as of October 4, 2011
                                       Description                                Obligations
             CBP payroll ($3,389,062) and travel ($249,162) for staff
             performing project-related duties                                     $3,638,224
             CBP construction management of eight projects and
             contracts for financial reporting and acquisition support             13,194,746
             Interagency agreements with GSA ($17,175,204) for
             managing 9 projects and with USACE ($15,414,271) for
             managing 16 projects and assisting with land acquisition              32,589,475
             PMRS for comprehensive real property planning and needs
             analysis, including support of port construction projects             19,751,482
             Other information technology purchase infrastructure needs
             at the ports, such as data equipment and telephone systems             2,419,262
                 Total                                                            $71,593,189

     Program Monitoring
            CBP established adequate oversight and monitoring processes and
            procedures for construction projects managed by CBP (8 projects), GSA
            (9 projects), and USACE (16 projects). In determining the level of
            management support needed, CBP used other government agencies such
            as GSA as guides and also reviewed industry benchmarks. GSA and



              Obligation of American Recovery and Reinvestment Act Funds by the
                 U.S. Customs and Border Protection for Land Ports of Entry

                                           Page 4
                  USACE used their own frameworks to determine the level of oversight
                  and monitoring support needed.

                  CBP, GSA, and USACE use a consistent management approach in which
                  they follow a project management plan to execute each construction
                  project. These plans outline the responsibilities of the project managers
                  and construction managers regarding project oversight. The project
                  manager performs general oversight duties including occasional site visits,
                  while the construction manager provides day-to-day management of the
                  projects. CBP also prepares biweekly Program Management Review
                  Reports that provide a summary dashboard that includes information
                  regarding the status, risks, and delays of the port construction projects.
                  These reports include information regarding all port construction projects,
                  whether they are managed by GSA, USACE, or CBP. Program
                  management support contractors also submit monthly status reports to
                  CBP regarding work performed, as well as any concerns or issues.

         Status of Projects and Funds
                  All planned construction and repair projects are underway except for
                  construction projects at Morses Line, Vermont, and Whitetail, Montana.
                  CBP classified the port for closure at Morses Line after inquiries from
                  Senator Leahy 1 and at Whitetail after Canada closed its port on the other
                  side of the border. In addition, CBP suspended construction at
                  Churubusco, New York, after Canada said that it was going to close its
                  counter port, but later decided to continue construction and operate
                  Churubusco as a one-way port. On average, progress toward completion
                  of the 31 construction projects is currently on time with the scheduled
                  completion dates.

                  CBP obligated $375,453,047 for the port modernization program by
                  September 30, 2010. This consists of $282,859,860 for building 33 new
                  ports, including land acquisition support, firing range remediation support,
                  and repairs and alterations to 8 ports. The obligations also consist of

1
  On May 23, 2010, Senator Patrick Leahy requested that Secretary Napolitano close the port at Morses
Line because it is “not a critical link in the chain of our nation’s security or commerce” and because it
“threatens a multi-generational operational dairy farm.…” In a June 24, 2010, response to the Senator,
Secretary Napolitano said that the Department decided to begin the process of closing Morses Line “based
on internal analyses and significant consultation with the local community and congressional
delegation.…” In an April 28, 2011, letter to the Commissioner of CBP, Senator Leahy wrote, “I favor
maintaining a port at Morses Line that meets the national security needs of the 21st Century. However, I
understand that the security deficiencies of the existing facility require [DHS] to increase the footprint of
the port, alter traffic flow around the building, and modernize the security capabilities. While I remain
concerned about efforts to condemn private farmland for the development of a new facility, I hope the
community and DHS might find a suitable alternative for improving this port facility.”


                     Obligation of American Recovery and Reinvestment Act Funds by the
                        U.S. Customs and Border Protection for Land Ports of Entry

                                                    Page 5
$71,593,189 for administration and monitoring construction and alteration
projects. Finally, in July 2010, the Chairmen of the House and Senate
Appropriation subcommittees on Homeland Security agreed to CBP’s
request to reprogram the remaining $21 million. CBP reprogrammed the
funding to the projects listed in table 2.

 Table 2. Projects Approved for Reprogrammed Funds
          Project                 Description      Amount
 Laredo Lincoln II Juarez Port        Alterations to Port             $ 1,008,075
 Laredo II Lincoln Juarez Bus         Alterations to Port               4,000,781
 Laredo I Convent                     Alterations to Port               2,491,144
 Nogales West – Mariposa              Alterations to Port               10,500,000
 Antelope Wells, NM                   Build Forward Operating Base       3,000,000
   Total                                                              $ 21,000,000


CBP had not obligated $44,546,953 of Recovery Act fund appropriations
by the end of the statutory period of availability on September 30, 2010.
According to CBP, it plans to set aside $8,665,533 of the expired funds as
additional funding for adjustments to the current reconstruction projects if
needed, and will return the remaining balance of $35,881,420 to the U.S.
Treasury. Appendix C lists the financial status and completion dates of
the projects.




  Obligation of American Recovery and Reinvestment Act Funds by the
     U.S. Customs and Border Protection for Land Ports of Entry 


                                 Page 6 

Appendix A
Purpose, Scope, and Methodology

                    Our objectives were to (1) determine whether funds obligated for
                    project administration and monitoring were for purposes authorized
                    by the Recovery Act; (2) determine whether CBP, GSA, and
                    USACE established adequate oversight and monitoring processes
                    and procedures over the construction and alteration projects; and
                    (3) identify the status of the obligations and projects as of

                    October 4, 2011. 


                    To meet our objectives, we—

                         Examined the Recovery Act; Department of Homeland
                         Security Appropriations Act, 2010, P.L. 111-83 (October 28,
                         2009); and applicable plans, policies, procedures, and internal
                         directives that CBP uses to administer and monitor the
                         construction of land ports of entry.

                         Interviewed project management and contracting officials
                         regarding port activities.

                         Reviewed documents supporting payroll and travel obligations.

                         Analyzed contracts and modifications and statements of work
                         related to information technology purchases totaling $2,419,262.

                         Interviewed CBP, GSA, and USACE officials responsible for
                         planning and managing the construction or alteration of port
                         projects, reviewed interagency agreements, and evaluated port
                         project supervision activities to evaluate project oversight.

                         Reviewed financial and construction status reports that CBP
                         submitted to DHS.

                         Visited the project management office for PMRS in
                         Indianapolis, Indiana, to obtain and assess information
                         regarding the history, status, and functionality of the system.

                    We conducted this audit from February through October 2011 in
                    Washington, DC, pursuant to the Inspector General Act of 1978, as
                    amended, and according to generally accepted government
                    auditing standards. Those standards require that we plan and
                    perform the audit to obtain sufficient, appropriate evidence to
                    provide a reasonable basis for our findings and conclusions based
                    upon our audit objectives. We believe that the evidence obtained



               Obligation of American Recovery and Reinvestment Act Funds by the
                  U.S. Customs and Border Protection for Land Ports of Entry

                                            Page 7
Appendix A
Purpose, Scope, and Methodology

                    provides a reasonable basis for our findings and conclusions based
                    upon our audit objectives.




               Obligation of American Recovery and Reinvestment Act Funds by the
                  U.S. Customs and Border Protection for Land Ports of Entry 


                                            Page 8 

Appendix B
Management Comments to the Draft Report


                                                                               1300 Pcn n~yh•m• ~'enue !>:\\'
                                                                               W•shmg•on DC 20229


                                                                               U.S. Customs and
                                                                               Border Protection




                                                February 29, 2012




          Charles K. Edwards
          Acting Inspector General
          Department of Homeland ecurity
          245 Murray Drive, SW, Building 4 10
          Washington, DC 20528

          Re: O IG Draft Report Entitled, "Ob ligation of American Recovery and Reinvestment
              Act Funds by U.S. Customs and Border Protection for Land Ports of Entry"
              {OIG-1 1-088-AUD-CBP)

          Dear Mr. Edwards:

                  Thank you for the opportunity to review and comment on this draft report.
          U.S . Customs and Border Protection {CBP) appreciates the Office of Inspector General"s
          {OIG's) work in planning and conducting its review and issuing this report. Our agency is
          pleased that the O!G found that funds obligated by CBP for administeri ng land ports of entry
          (LPOEs) were for authorized purposes and that its process for monitoring projects was
          adequate.

                  As part of the U.S. Department of Homeland Security's {D H 's) overall American
          Recovery and Reinvestment Act (ARRA) progran1, CBP's LPOE Program Management Office
          (PMO), consisting of. and receiving support from , a diverse group of facilities, procurement.
          operations and service provider professionals. closely monitors the allocation of resources and
          progress of ARRA- funded land port projects from inception to completion. CB P' s disciplined
          governance framework put in place to oversee the obligation of ARRA funds, also included
          regular leadership reviews at CBP and DHS Headquarters to monitor the cost and schedule
          associated with the LPOE efforts. The PMO ensured that the funds allocated to CBP for land
          port modernization effectively fulfi lled the purpose and the goals of ARRA: stimulating the
          economy by hiring American companies and creating American jobs to strengthen the
          infrastructure of America.

                  Again, thank you for the opportunity to review and comment on this draft report. We
          note that the report docs not contain any recommendations for CBP. CBP has no technical or
          sensitivity comments.




                 Obligation of American Recovery and Reinvestment Act Funds by the
                    U.S. Customs and Border Protection for Land Ports of Entry 


                                                    Page 9 

Appendix A
Purpose, Scope, and Methodology



                                                          2


                   We look forwa rd to working with you on future reviews. lf you have any questions,
           please have a member of your staff contact Patty Quintana, Audit Liai son, Office of Internal
           Affairs at (202) 344-1038.


                                                Si:e: : //1         ~
                                                 ~Fo;_:
                                                 James F. Tomshcck
                                                 Assistant Commissioner
                                                 Office of Internal Affairs




                Obligation of American Recovery and Reinvestment Act Funds by the
                   U.S. Customs and Border Protection for Land Ports of Entry 


                                                   Page 10 

Appendix C
Projects, Funds Obligated, and Forecasted Completion Dates as of October 4, 2011

                          Projects                    Obligation         Completion Date
          New Construction
          Amistad Dam, TX                                 $ 8,299,887                June 30, 2012
          Antelope Wells, NM                               10,563,749           December 5, 2011
          Antler, ND                                        7,688,366             August 29, 2011
          Boundary, WA                                     13,887,938                May 12, 2012
          Bridgewater, ME                                   7,791,789              August 7, 2012
          Cannons Corner, NY                                8,002,388                May 25, 2012
          Carbury, ND                                       7,569,446                July 18, 2011
          Churubusco, NY                                    8,377,447           January 27, 2012
          Del Bonita, MT                                    6,521,436                 June 1, 2012
          Easton, ME                                        6,349,620                July 16, 2012
          Forest City, ME                                   6,541,156                June 30, 2012
          Frontier, WA                                     15,088,278             August 31, 2011
          Hamlin, ME                                       10,031,012                May 11, 2012
          Hannah, ND                                        6,724,778                June 30, 2012
          Hansboro, ND                                      8,010,855         September 26, 2011
          Los Ebanos, TX                                    8,378,612             August 17, 2012
          Maida, ND                                         8,412,132         December 13, 2011
          Morgan, MT                                        8,851,052            October 11, 2011
          Morses Line, VT                                     171,149        Identified for closure
          Neche, ND                                         8,413,015         September 15, 2011
          Nighthawk, WA                                     8,141,846            January 12, 2012
          Noonan, ND                                        9,482,578             August 15, 2011
          Pinecreek, MN                                     6,102,225                June 30, 2012
          Pinnacle Road, VT                                 7,804,604            October 28, 2011
          Pittsburg, NH                                     8,413,306           December 8, 2011
          Sarles, ND                                        6,299,172                June 30, 2012
          Scobey, MT                                        8,113,052            October 11, 2011
          Sherwood, ND                                      7,403,694                 June 3, 2011
          Walhalla, ND                                      7,846,962         September 16, 2011
          Westhope, ND                                      7,599,787                 June 3, 2011
          Whitetail, MT                                     8,564,368        Identified for closure
          Whitlash, MT                                      6,455,915                June 30, 2012
          Wild Horse, MT                                    9,224,158         September 28, 2011
            Subtotal                                   $267,125,772 a
          Land Acquisition and Support                     4,361,428
          Firing Range Rem. and Support                      269,686
          Repairs and Alterations                          11,102,974
             Subtotal                                   282,859,860 a
          Administration and Monitoring
          CBP Payroll and Travel                            3,638,224
          CBP Internal Support                             13,194,746
          GSA and USACE Support                            32,589,475
          PMRS                                             19,751,482
          Other Information Technology                      2,419,260
               Subtotal                                    71,593,187
          Reprogrammed Funds                              21,000,000 a
            Subtotal                                      375,453,047
          Unobligated Appropriation                        44,546,953

               Total                                     $420,000,000
          a
              Unaudited, information is as reported by CBP to DHS.


                       Obligation of American Recovery and Reinvestment Act Funds by the
                          U.S. Customs and Border Protection for Land Ports of Entry
 


                                                    Page 11
 

Appendix D
Major Contributors to this Report

                    Roger LaRouche, Director
                    William Gillies, Audit Manager
                    Kendra Loper, Auditor
                    Katrina Reuben-Bynes, Independent Referencer




               Obligation of American Recovery and Reinvestment Act Funds by the
                  U.S. Customs and Border Protection for Land Ports of Entry 


                                           Page 12 

Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      DHS Component Liaison, CBP
                      Recovery Act Coordinator

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




               Obligation of American Recovery and Reinvestment Act Funds by the
                  U.S. Customs and Border Protection for Land Ports of Entry
 


                                           Page 13
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
